<html>
<title> - CHESAPEAKE BAY RESTORATION: PROGRESS AND CHALLENGES</title>
<body><pre>[Senate Hearing 113-727]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-727

                      CHESAPEAKE BAY RESTORATION: 
                        PROGRESS AND CHALLENGES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   SEPTEMBER 3, 2013--GRASONVILLE, MD

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-01  PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
    
    
    
    
    
    
    
    
    
    
    
    
    
    

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
MAZIE K. HIRONO, Hawaii

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
THOMAS R. CARPER, Delaware           JOHN BOOZMAN, Arkansas
SHELDON WHITEHOUSE, Rhode Island     JAMES M. INHOFE, Oklahoma
JEFF MERKLEY, Oregon                 JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         JEFF SESSIONS, Alabama
MAZIE K. HIRONO, Hawaii              DEB FISCHER, Nebraska
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 3, 2013
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana, 
  prepared statement.............................................    72
Boozman, Hon. John, U.S. Senator from the State of Arkansas, 
  prepared statement.............................................    73

                               WITNESSES

Sarbanes, Hon. John P., U.S. Representative from the State of 
  Maryland.......................................................     4
DiPasquale, Nicholas, Director, Chesapeake Bay Program, U.S. 
  Environmental Protection Agency................................     5
    Prepared statement...........................................     8
Baker, William C., President, Chesapeake Bay Foundation..........    31
    Prepared statement...........................................    34
Spies, Paul, Agricultural Conservation Planner, Chester River 
  Association....................................................    45
    Prepared statement...........................................    48
Neuman, Laura, County Executive, Anne Arundel County, Maryland...    53
    Prepared statement...........................................    57

 
          CHESAPEAKE BAY RESTORATION: PROGRESS AND CHALLENGES

                              ----------                              


                       TUESDAY, SEPTEMBER 3, 2013

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                   Grasonville, MD.
    The subcommittee met, pursuant to notice, at 11 a.m. at the 
Chesapeake Bay Environmental Center, Grasonville, Maryland, 
Hon. Benjamin L. Cardin, chairman of the Subcommittee, 
presiding.
    Present: Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Let me welcome you all to the field hearing 
of the Environment and Public Works Committee's Subcommittee on 
Water and Wildlife.
    I particularly want to thank Senator Boxer and Senator 
Vitter and Senator Boozman for their help in arranging this 
hearing. We have worked together on the Chesapeake Bay in our 
Committee, and we have had several hearings related to the 
health of the Chesapeake Bay. And I appreciate their 
willingness to allow me to hold--this is actually our second 
field hearing. We held one in 2009 in Annapolis, and this is 
the second field hearing we have held on the status of the 
Chesapeake Bay.
    I particularly want to thank my colleague, John Sarbanes, 
for being here. I think it is very appropriate that this 
hearing is being held at the Chesapeake Bay Environmental 
Center. I say that with Congressman Sarbanes here. This center 
provides an educational experience for particularly young 
people to understand what we need to do in order to protect the 
Chesapeake Bay for future generations. Congressman Sarbanes has 
been the leader in our State in recognizing that children need 
to get out and understand the environmental responsibilities 
that we all have. And I thank him for his leadership and I 
thank him for being here today.
    I have been involved with the Chesapeake Bay, I guess, my 
entire political life, but I particularly cherish the times 
that I spent with Governor Hughes in Maryland when he was 
Governor of our State and really initiated the Chesapeake Bay 
Program. It was started in Maryland as an understanding that 
our Chesapeake Bay is critically important to the State of 
Maryland, particularly important to our region, not just as an 
environmental treasure as it is. It is a national treasure. It 
is actually an international treasure as Presidents have 
declared, but it is also critically important to our economy. 
And we have documented just how significant that is.
    The Chesapeake Bay was in serious, serious trouble. There 
were parts of the coast that you did not even want to go near 
because of the amount of pollution that we saw in the 1970s 
when we first started this effort to clean up the Chesapeake 
Bay. And I do applaud Governor Hughes for his leadership in 
bringing together not just the State of Maryland but bringing 
together other States, all the States in the region, engaging 
the Federal Government, and particularly engaging the private 
sector as we came together with a strategy to improve the 
Chesapeake Bay. This hearing is going to concentrate on how far 
we have come and how far we still need to go on cleaning up the 
Chesapeake Bay.
    We have two panels. One will include EPA, and I thank Mr. 
DiPasquale for being here. We will have a second panel that 
will deal with some of the principal stakeholders in our effort 
with the Chesapeake Bay.
    The University of Maryland's most recent Chesapeake report 
card graded the Bay as a C, a marked improvement over the 
previous year with a D+. The report card noted several 
important indicators including decreased nitrogen and 
phosphorus pollution, an improvement of water clarity and 
dissolved oxygen. That is very important because it meant less 
dead zones in the Chesapeake Bay. So today is an opportunity 
celebrate those successes and to highlight the strong efforts 
of all stakeholders, our farmers, our cities, our counties who 
are working so hard to make a difference for the Chesapeake 
Bay.
    Now, the Chesapeake Bay help is critically important to our 
ecology. It is important also to our economy. The Chesapeake 
Bay Foundation estimates that the Bay is worth $1 trillion to 
our fishing, tourism, properly values, and shipping activities. 
Between just Maryland and Virginia, the commercial seafood 
industry equals $2 billion in sales, $1 billion in income, and 
more than 41,000 jobs per year.
    But like most watersheds in this Nation, the Bay has had to 
deal with challenges that come from a growing and expanding 
population. It is just a great place to live. More people want 
to live here. We are proud that people are coming from all over 
the world to live in the Chesapeake Bay watershed. In the 30 
years since the Chesapeake Bay Program started, the number of 
people living in the watershed has exploded. The population of 
the Chesapeake Bay watershed has grown from 12 million when the 
program started to nearly 18 million residents today. That is a 
50 percent increase.
    With people come environmental challenges. Because of this 
dramatic growth, the amount of impervious surfaces has 
increased by about 100 percent during that same 30-year 
timeframe.
    Among the impacts of this increased regional growth is an 
excess of nitrogen and phosphorus flowing into the Bay, causing 
the concentration of dissolved oxygen in water to decrease to a 
level that no longer supports living aquatic organisms, 
creating vast dead zones.
    The problems that plague the Bay are stark but they are not 
unique. The same challenges exist in many of our watersheds 
around the Nation from the Gulf of Mexico to the San Francisco 
Bay. So what we do here is not just important for the 
Chesapeake Bay, but it gives us a model for other watersheds 
around our Nation. And we have been at this a lot longer than 
many of the other communities. But what we have done here has 
certainly helped our national effort.
    If we want to improve the health of the Bay and continue to 
develop practices that can be applied across the country, we 
need to increase our commitment and become more creative in our 
solutions. And the question cannot be whether the Federal 
Government should take more responsibility. It is how it should 
take that responsibility.
    One way I believe the Federal Government can make a 
difference is by supporting our farmers in their conservation 
efforts. Agricultural runoff represents the largest proportion 
of nutrient pollution for the Bay and, therefore, offers the 
greatest opportunity for achieving meaningful nutrient 
reductions.
    In Maryland, our farmers have been at the forefront of 
working with us in conservation efforts to reduce the impact on 
our environment. They are some of our best stewards of the 
land. In the past 2 decades, Maryland farmers have spent 
millions of dollars to install and maintain conservation 
practices on their farms to protect natural resources and the 
health of the Chesapeake Bay.
    But more needs to be done. That is why I worked so hard on 
the Farm Bill. I know we are looking at a new way to deal with 
conservation programs that can help the Chesapeake Bay 
watershed. The bill that was reported out by the Senate 
incorporates new opportunities for us to help farmers so that 
they cannot only do the right thing with the Bay but they can 
have a viable business and be able to compete in today's global 
agricultural economy.
    Beyond the potential to support agricultural efforts to 
improve the Bay, the Federal Government has a critical role to 
play to make sure our water infrastructure is in a good state 
of repair. Even as the demand for clean water has increased, we 
have been underfunding investments in our infrastructure at the 
Federal level which, in turn, presents major challenges for 
local water authorities.
    During this month of August, I visited some of our water 
authorities and seen firsthand the challenges they have with 
aging facilities, with the fact that they basically rely on the 
ratepayers for a lot of their improvement. And the rates have 
gone up and there is a limit as to how much you can charge the 
ratepayers. And our densely populated cities are served by 
pipes that are least 100 years old. The task of meeting the 
challenges generally falls on the shoulders of local 
municipalities.
    EPA has estimated that more than $630 billion will be 
needed over the next 20 years to meet the Nation's drinking 
water and wastewater infrastructure needs. Most of this will 
need to be funded locally. Well, we have got to step up and 
help. We have got to do a better job. As I said a little bit 
earlier, we need to find new, creative ways to help deal with 
the challenges that we have in the Bay.
    But here is the good news. The United States Department of 
Commerce estimates that each job that we create in the water 
infrastructure will create almost four jobs in the private 
sector. So this is a jobs issue. By investing in water 
infrastructure, we help our economy not only directly but also 
indirectly. It has been estimated that for every dollar we 
spend in water infrastructure, there will be almost a $3 
economic output in other industries.
    Since water infrastructure is critical to everything from 
reducing runoff and pollutants to creating good paying jobs, I 
firmly believe the Federal Government has an important role in 
ensuring that local governments can continue to provide clean 
and safe water. The public demands that when they turn on their 
tap, they have safe water. We have to help the local 
governments make sure that is maintained. It is critical to the 
health of our communities and for the health of the Chesapeake 
Bay.
    So today we know the Bay is making progress, but we still 
have a way to go. I look forward to hearing from the experts 
today so that we can develop a strategy to move forward for the 
future.
    Before turning to Mr. DiPasquale, let me first turn to my 
colleague, Congressman Sarbanes, once again thanking him for 
being here but, more importantly, thanking him for the 
leadership that he has shown on protecting our Chesapeake Bay.

              STATEMENT OF HON. JOHN P. SARBANES, 
         U.S. REPRESENTATIVE FROM THE STATE OF MARYLAND

    Representative Sarbanes. Thank you very much, Senator 
Cardin. It is a real privilege to be here today for this very 
important hearing.
    I want to first off salute the Senator for his leadership 
with respect to restoring the health of the Chesapeake Bay. No 
one is doing more nationally for any treasure of the kind like 
the Chesapeake Bay than Senator Cardin is, and we certainly 
have benefited from his leadership in Maryland and in the 
Congress.
    The third district, the newly drawn third district, has 
even greater portions of the coastline of the Chesapeake Bay 
now, not from the eastern shore but from the western shore, 
including Annapolis and the coastline coming down from Gibson 
Island. So as much as I was focused on the health of the Bay 
before, I am even more keenly concerned that we continue to 
move forward with respect to our efforts to improve the health 
of the Bay.
    The Chesapeake Bay Program is a critical partnership for 
years now and has focused the efforts of these resources and 
many, many different players in making sure that we are 
achieving this progress. And we are looking forward to your 
testimony today on this important issue.
    You know, having the EPA's involvement in the health of the 
Bay is so important because you get that overarching 
perspective. Different States within the Chesapeake Bay 
watershed and the six States and the District of Columbia, 
obviously, which directly affect the health of the Bay, are all 
engaged in their own efforts to contribute to this important 
project. But you need that national perspective because there 
are things that nature crosses State lines, and in the absence 
of that perspective, we are losing critical components. That is 
why I am happy to have the EPA's perspective at this hearing 
and it is so important.
    My particular focus--and the Senator was gracious in 
alluding to my efforts on behalf of citizen stewardship, 
particularly reaching out to the next generation and making 
sure they understand what is at stake and connecting them to 
the environment, to environmental literacy, to the Chesapeake 
Bay if they happen to live in Maryland or one of these other 
important States that are part of the watershed so that they 
grow up with that value instilled in them and they become 
stewards in the future. And I have supported strongly the 
efforts to connect young people to nature across the country in 
terms of integrating environmental literacy with the full needs 
of instructional programming.
    I am also very interested generally in how we involve 
ordinary citizens as partners in our efforts to clean up the 
Chesapeake Bay and environment and have sponsored legislation 
such as ``The Chesapeake Bay Homeowners Act'' where we give 
homeowners the opportunity to contribute in quantifiable ways 
through credits that local jurisdictions and States are trying 
to achieve with respect to the pollution diet put in place by 
the EPA.
    To close, I will just echo what Senator Cardin said at the 
outset of his remarks and at the end, which is this is about 
the economy of this region. If you invest in the things that 
clean up Chesapeake Bay, you are also investing in things that 
create jobs and help to produce a very important economy of our 
region and the State of Maryland. And that is why this is so 
critically important.
    So I appreciate the opportunity to be a guest and 
participate in the hearing today. Thank you, Senator Cardin.
    Senator Cardin. Thank you, Congressman Sarbanes.
    Our first witness is Nick DiPasquale, who is the Director 
of the Chesapeake Bay Program at the United States 
Environmental Protection Agency. Mr. DiPasquale previously 
served as Deputy Secretary of the Pennsylvania Department of 
Environmental Protection and Director of the Environmental 
Management Center for the Brandywine Conservancy in Chadds 
Ford, Pennsylvania and as Secretary of the Delaware Department 
of Natural Resources and Environmental Control. So he brings a 
lot of experience not just at the Federal level but also at the 
State level. It is good to have EPA lead off this discussion.
    The Obama administration in 2009, by Executive order, 
really elevated the Federal Government's commitment and 
partnership to the Chesapeake Bay, and this gives us a chance 
to review the current status of the Federal commitment to the 
Chesapeake Bay.

  STATEMENT OF NICHOLAS DiPASQUALE, DIRECTOR, CHESAPEAKE BAY 
         PROGRAM, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. DiPasquale. Good morning, Mr. Chairman, and Congressman 
Sarbanes. I am Nick DiPasquale, Director of the EPA's 
Chesapeake Bay Program Office in Annapolis.
    I want to thank you for the opportunity to testify about 
the progress the Chesapeake Bay Program Partnership is making 
to restore the watershed. The partnership, as you know, has a 
long history of bringing together the intellectual and 
financial resources of various State, Federal, academic, and 
local watershed organizations to develop and adopt policies 
that support a unified plan for watershed restoration.
    This year, we recognize the 30th anniversary of the 
partnership and celebrate many of its successes. Our 
accomplishments and scientific developments are studied and 
used as a model throughout the United States and, as you 
recognized, throughout the world actually internationally.
    During the last 30 years, actions taken at the Federal, 
State, and local level have made a significant impact. 
Activities such as improved controls in wastewater treatment 
plants, enhanced conservation practices to reduce nutrients and 
sediment runoff from farms, more effective stormwater controls 
in both urban and suburban areas, and better requirements and 
technologies that reduce air deposition of nutrients.
    However, increased impervious surfaces, as again you 
recognized, the changing environmental conditions, and other 
developments that support a growing population have lessened 
the impact of these achievements.
    Although the ecosystem generally remains in a degraded 
condition, the Bay's health has slowly improved in a number of 
areas, and we are witnessing clear signs of continuing recovery 
across the watershed. Data from actual water quality monitoring 
locations show a trend of improving water quality condition in 
many parts of the watershed. During the past 25 years, nitrogen 
and phosphorus concentrations have decreased at almost 70 
percent at the monitoring sites within the watershed and 
sediment has decreased by about 30 percent at these sites. A 
2011 study by Johns Hopkins and the University of Maryland 
showed that summer dead zones leveled off in the Bay's deep 
channels during the 1980s, and they have been declining ever 
since.
    The Bay ecosystem is showing other signs of recovery such 
as progress in rockfish restoration, better managed crab 
populations, restored grass beds despite heavy rains and more 
frequent and severe storms. These signs of progress show an 
ecosystem that is regaining its resilience. This is an 
important aspect of the restoration effort. But challenges do 
remain.
    Other collaborative efforts that are making a difference 
include the Chesapeake Bay total maximum daily load, or TMDL, 
and President Obama's Chesapeake Bay Executive order strategy.
    With involvement from States, local governments, and 
numerous stakeholders, the EPA issued its final Chesapeake Bay 
TMDL in December 2010. Through the TMDL, States are putting in 
place practices for reducing nutrient and sediment from urban 
lands, including measures to limit runoff through storm flow 
capture and draining initiatives and the creation of stormwater 
utilities to help finance these improved control measures.
    Additionally, many wastewater treatment plants have reduced 
nutrients down to the limits of technology.
    The agricultural sector has done much to reduce pollution 
to the watershed as well and continues to do so through the use 
of new technologies and practices such as cover crops.
    With the continued effort of all of these sectors, these 
actions will help ensure that we maintain our progress.
    The positive effects of these efforts are already being 
seen in the watershed simulation showing that the partnership 
has achieved more than 25 percent of reductions in nitrogen, 
phosphorus, and sediment that are going to be required by the 
2025 deadline in the TMDL. The partnership also agreed to a 
series of 2-year milestones to measure its progress, and I am 
pleased to say that all of the Bay's jurisdictions are largely 
on track to achieve their reductions for this year.
    We have also seen progress as Federal agencies have 
implemented the President's Executive order on the Chesapeake 
Bay restoration. For example, Federal agencies have added new 
monitoring stations to non-tidal areas of the watershed. They 
planted nearly 100 acres of oyster reefs in Harris Creek. They 
have implemented conservation practices on more than 342,000 
acres of high priority working lands, and they have protected 
more than 1,300 acres at defense installations within the 
watershed.
    But even with these recent developments, in July 2011, the 
Chesapeake Bay partners agreed that after 13 years, the 
Chesapeake 2000 agreement needed to be updated. We are now in 
the process of developing a new agreement. This new plan will 
clarify our shared goals and outcomes, and it is intended to be 
more flexible to increase transparency and accountability and 
to allow greater participation by all partners, including the 
watershed States of West Virginia, New York, and Delaware.
    Finally, the partnership continues to address complex and 
emerging issues that can adversely affect the Chesapeake Bay 
watershed through a process called ``adaptive management.'' 
Examples of some of the emerging issues include a continued 
increase in impervious development, impacts related to climate 
change, the development of new technologies, new scientific 
understandings about the effects of dams, invasive species, and 
the effects of weather on the watershed. The partnership is 
committed to considering these issues to best inform our 
restoration strategies.
    In closing, I want to reiterate that while we have made 
progress, additional reductions are still needed from all 
sectors to meet water quality standards in the Bay and in local 
waterways. Despite these signs of progress, the job is far from 
complete, and major water quality and ecosystem challenges 
remain.
    The EPA and the Chesapeake Bay Partnership remain committed 
to working with all stakeholders to achieve a healthy 
Chesapeake Bay watershed. Working together, we can have 
thriving communities, productive and profitable farms and 
restored waters.
    Again, I want to thank you for the opportunity to testify 
today, and I would be pleased to answer any questions that you 
may have.
    [The prepared statement of Mr. DiPasquale follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    Senator Cardin. Well, thank you again for your testimony 
and thank you for your leadership in this area.
    You do point out the progress that we have made. We all 
acknowledge that. As I said earlier, I remember days that you 
did not even want to go near the water in some parts of some 
coasts. We were in danger of having to put permanent 
restrictions on the recreational use of the Bay, and we went 
through some very tough periods with what recreational fishing 
could do on the Bay as far as the rockfish, et cetera. And this 
year has been a pretty good year for rockfish. So we have seen 
some progress.
    But looking at the 2011-2012 Bay barometer, which noticed 
improvement on the oxygen levels and the reduction of dead 
zones, it also points out that we have challenges to meeting 
the overall goals. I look at some of the specifics. Bay grasses 
are at 26 percent of what was a goal set. The bottom habitable 
is 45 percent. The American shad, 34 percent. The Atlantic 
menhaden, 25 percent of what we would like to be at. So it 
seems like we still have a significant achievement to reach the 
goals that we all said were where we wanted to be.
    Now, I understand we are going to look at moving forward 
from the 2000 agreement, but do you agree that we are only 
doing a C, that there is still a lot more that could be done, 
using good science, good economics to get the Bay where it 
needs to be?
    Mr. DiPasquale. Yes. There is no question that we need to 
redouble our efforts and make the improvements that you are 
suggesting. When you look at the trends from year to year, 
sometimes there are a number of factors that can impact how 
that particular resource is responding. For example, with Bay 
grasses, the storms that occurred from Hurricane Irene and 
Tropical Storm Lee had a really significant impact on 
underwater grasses, but when you take a look at the Susquehanna 
Flats, for example, which we expected would suffer some severe 
damage like it did in Agnes in 1972, it was not as severely 
impacted as we thought it would be. And that is an example of 
the resilience that I mentioned. It is starting to get rebuilt 
back into the Bay system.
    But we need to look at trends over a longer period of time, 
and that is why I think the Hopkins and the University of 
Maryland study is instructive in that regard. The ecosystem 
sometimes takes a while to respond to the measures we implement 
to reduce pollution loading. We are at the point now, for 
example, under the TMDL--we have only had really about 2 and a 
half years of implementation. Phase II watershed implementation 
plans have been approved and the first 2-year milestones--we 
are 1 year into the first 2-year milestones under the TMDL. But 
I think we are at a point now where we are going to see some of 
these measures being implemented and we are going to get over 
that tipping point for the Bay restoration effort. We are going 
to see some significant improvement, for example, in stormwater 
controls. Many of the localities are adopting stormwater 
utility fees. They have got projects that they are ready and 
willing to undertake. And as those projects are implemented, we 
are going to see more and more progress taking place.
    Senator Cardin. Let me just quickly go through the 
different major areas of concern. In agriculture, which a large 
part is not under the EPA's direct jurisdiction, which I 
understand, we have made a lot of progress in our State. The 
Farm Bill is critically important in the conservation sections 
and we hope that we can resolve them.
    The administration could move more aggressively on the 
nutrient trading program. They have the authority and we have 
seen it work in other areas where we have provided the right 
incentives for the private sector to develop more cost 
effective solutions. Pennsylvania has used a nutrient trading 
program in agriculture.
    Where are we as far as the administration looking at ways 
to implement an effective nutrient trading program for the Bay 
region?
    Mr. DiPasquale. As you know, there are three States right 
now that have active trading programs: Maryland, Virginia, and 
Pennsylvania. We are not developing a single trading program at 
EPA that then is delegated to the States. What we are trying to 
do is harmonize the trading programs that are out there, and we 
are issuing a series of technical memoranda that will 
essentially set the expectations for the jurisdictions to use 
in either establishing or refining their own program so they 
can get credit under the TMDL. We have probably got about half 
the technical memoranda we have identified out and being 
reviewed or in the process of being implemented, and the States 
will be making changes, hopefully, to their programs to be more 
consistent with that overall general expectation.
    But I agree that once the rules of the game are well 
defined, we are going to see more active participation on the 
part of buyers and sellers in that market.
    Senator Cardin. I think there is a role for the Federal 
Government to play here. I understand the States are moving 
forward, but I would just encourage you to take a good look at 
this because I think this is a win-win situation. We are 
looking at some of the costs on the local governments on 
dealing with water issues versus working with the agricultural 
community for nutrient reductions. The cost issues could very 
well dictate some help for local government on nutrient trading 
programs. So I think a Federal role is needed here, and I would 
just urge you to just look at this and see whether we cannot 
move it forward aggressively in dealing with the nutrient 
reduction levels.
    Let me talk just a little bit about development. We are 
still waiting for the runoff regulations on storm runoff issues 
from EPA. We have been waiting a long time. We would like to 
see that issue. The stormwater runoff issue is the largest 
growth area of concern of pollutants going into the Bay.
    I was at a brick company. August gives me a chance to get 
out and see my State. So we have this greater Maryland tour, 
and we went to the Ernest Maier Brick Company. I always give 
plugs to Maryland businesses. And they have ways of doing 
surfaces that look like they are concrete, but the water is 
managed on the runoff, giving us the best of all worlds, giving 
you the use of the surface but also helping us on runoff and 
doing it in a more responsible way to actually control the 
volume of runoff by how they do the underpinnings to the brick 
work.
    It seems to me that there is a lot of potential here in 
dealing with stormwater runoff that you have not yet met, and 
the Federal Government really does need to be in the 
leadership. So can you give me a status as to how we are doing 
on the stormwater runoff issues?
    Mr. DiPasquale. Well, I am hopeful that proposed regulation 
will be promulgated relatively soon. I think it will help 
provide incentives for using low impact development types of 
techniques similar to that which was undertaken by the District 
of Columbia in their MS-4 permit. I think that really kind of 
set an example for how we can use low impact development, green 
roofs, tree plantings, and that sort of thing to take up both 
stormwater flow and the nutrients that are contained within it.
    I am aware of the example that you mentioned, and in fact, 
when I am out talking, I use that as an example of ways that 
communities can make investments because putting those pervious 
pavers in local communities where they are manufactured 
actually end up creating more jobs.
    Also in that area, there was a local firehouse that put a 
green roof on. They were able to essentially contain all of the 
water that came down on their facility, and whatever overflow 
actually occurred, they had a storage tank that they would 
contain the water in and then use that for firefighting 
purposes. They would actually use it to fill their tanker 
trucks.
    So that kind of creative thinking. As I go around the 
watershed, I see a lot of innovation occurring. 
Charlottesville, Virginia; Lynchburg, Virginia; Lancaster City, 
Pennsylvania. You see some very creative approaches being taken 
by public works directors and local city councils to deal with 
some of the issues that are before them. They know the cost is 
high. They are looking for ways to reduce the cost and still 
make the improvement in water quality that they are expected to 
make.
    Senator Cardin. And we would hope that your policies will 
encourage that. We understand that population growth will 
continue. People want to live in this area. That means there is 
more pressure on construction. Construction done in the right 
way can help us deal with the problems, but in the wrong way, 
compounds the challenges. So if we are all going to work 
together, then we have to have an aggressive policy to deal 
with the realities of construction whether it is public 
construction or whether it is private construction, and the 
Government has be in the leadership. That is why the 
regulations here are particularly important. We understand we 
have got to get it right. We want to work with you to move 
ahead in this area.
    Last, let me just mention the problems of local 
governments, and we will hear from some of the local people 
today. Financially they need a more aggressive way of dealing 
with development, particularly how they deal with water 
infrastructure. We need creative ways. Mayor Stephanie 
Rawlings-Blake testified before our Committee--this was a year 
or a year and a half ago--urging some new approaches. And I 
have introduced legislation on the resiliency trust fund where 
we try to leverage dollars to deal with the dollar amounts. The 
numbers that you are throwing out on the need for water 
infrastructure are huge. We need some new initiatives. There is 
just not enough money under the current programs to deal with 
this challenge.
    Mr. DiPasquale. Well, we have held a series of 
environmental finance workshops throughout the watershed to 
provide local communities with a variety of tools and 
approaches that they can use to help finance those kinds of 
improvements. Again, as I mentioned previously, we see a lot of 
innovation taking place. That is driven by the high cost of 
implementing some of this, and we are trying to use those as 
example throughout the watershed for other communities to 
consider.
    I also think there is a role for the private sector. 
Private sector financing and trading is another example of 
using a mechanism to drive the costs down while achieving the 
water quality objective. But the private sector is out there. 
They are interested. We get contacted on a pretty routine 
basis. They are looking for opportunities to use private 
capital to make some of these improvements. And actually one of 
the concerns we have is with the capacity of local governments 
to take on a large number of projects all at one time. We see 
the use of the private sector as being a way to help get the 
job done essentially.
    Senator Cardin. I agree with that. What brings our 
Committee together, Democrats and Republicans, are ways that we 
can leverage investment, whether it is roads, bridges, transit 
systems or whether it is water infrastructure. It brings us 
together. I think, finding what has worked in local communities 
and trying to model that, and trying to provide incentives for 
that makes sense.
    So we hope that you will share best practices and creative 
ways. We know the deficit that is there. We have had too many 
Beltway closings and business evacuations in our State and 
around the Nation too many times. We have seen businesses and 
lives put at risk because of water main breaks. We have got to 
deal with this, and finding creative ways, I am convinced that 
we can get the critical mass of Congress to support critical 
ways to advance investment in modernizing our water 
infrastructure. So I hope that you will encourage local 
governments to come in with creative solutions where we can 
help as a partner in advancing a greater commitment to 
infrastructure improvement.
    Let me turn to Congressman Sarbanes.
    Representative Sarbanes. Thank you, Senator. I just have a 
couple of quick questions.
    Let me just preface it by saying this concept of resilience 
is really an exciting one. It is when those who are trying to 
help the Bay sort of enter into partnership with the Bay 
itself. As we hit those tipping points as the Bay achieves 
resilience or portions of the Bay achieve this resilience, we 
want to make sure we preserve that and do not slide back. So I 
am very intrigued by your observations in that regard.
    I wondered if you could just describe the importance of 
bringing new States into the agreement that is being put 
together now for the next version of the Chesapeake Bay Program 
and sort of the potential that is represented to do this in a 
more formal way.
    Mr. DiPasquale. Well, as you may know, currently the 
headwater States are participating on the water quality side of 
it through a memorandum of understanding. So they have never 
really been full partners in the partnership agreement, 
although some of them certainly have interest in fisheries and 
habitat and some of the other components of the partnership 
effort.
    The new agreement is not going to be an overhaul of the old 
agreement. It is basically going to be a refinement and it is 
going to provide some unique features that have not existed 
before. So we have been going through a process over the last 
almost 2 years now of looking at the goals that were set out 
under previous agreements under the Executive order strategy 
under the TMDL, and we are trying to harmonize those so that 
all of these efforts are moving in the same direction at the 
same time and that we are making the most effective use of our 
resources. In fact, the Executive order strategy anticipated 
that and directed us to do that. The Chesapeake Bay Executive 
Council likewise directed us to go out and refine our goals and 
outcomes. So we have been engaged in that process for about 2 
years.
    After the first of the year, we really started to take a 
look at how we could develop a new agreement that is going to 
be a lot more flexible. So one of the things we have done is 
incorporated an adaptive management decisionmaking framework 
into the day-to-day implementation activities that are 
anticipated under the new agreement. We have started to do that 
previously with the goal implementation teams that we have, 
fisheries habitat, water quality, so that we actually use the 
data we are collecting. We are analyzing it. We are trying to 
determine what factors may be influencing whether or not we are 
achieving our goal. We are using that as a feedback mechanism 
to make changes and improvements in the way we go about doing 
business.
    The other feature of the new agreement that I think is new 
is the use of management strategies to articulate how we intend 
to achieve each of the outcomes that will be established under 
the new agreement. Management strategies have not been used 
previously. This will be a new feature. Everybody who has an 
interest in participating, whether it is a State jurisdiction, 
local government, non-governmental organization, academic 
institution, would all sign on to this management strategy that 
is designed to achieve a particular outcome. It would have 
periodic check-in periods every 2 years, similar to the 
milestones, so we make sure we are staying on target and moving 
toward that outcome. It would take into account things like 
impact from land use or the effects of climate change. It would 
articulate the resources that each of the entities brings to 
bear on achieving that particular outcome.
    So it is increasing the transparency of the way we do 
business because there will be a plan. This management strategy 
essentially would be a plan that anyone could look at and 
participate in or question. So it would be developed with full 
public participation and people would be able to weigh in on 
it. It also becomes the accountability vehicle ultimately for 
making sure we stay on target. I think that is an important 
feature.
    Also, in terms of flexibility, under the agreement as 
currently drafted, the Executive Council, which is the 
Governors of the States, the Chairman of the Chesapeake Bay 
Commission, the EPA Administrator, and the Mayor D.C. would 
essentially delegate to the principal staff committee, which 
are the executive secretaries in each of the agencies in each 
of the jurisdictions, the ability to make changes to the 
outcomes. So that as we get information and need to make 
adjustments, that body would be able to make changes and would 
not have to go back to make changes to the agreement to 
accomplish that.
    Again, this would be done with full public participation. 
So I think there are a number of features like that that really 
are an improvement over the previous one.
    Representative Sarbanes. And then the last question.
    First of all, let me thank the EPA for working closely with 
us and trying to further develop and pilot this idea of 
communities stepping up and taking real ownership of efforts to 
reach these TMDL goals and objectives. And the Chesapeake Bay 
Homeowner Act we have introduced will basically help us sort of 
model what could that look like if you have ordinary homeowners 
who have a menu of options for things they can do on their own 
property that will, in fact, reduce runoff and otherwise add to 
the water quality and in so doing move that jurisdiction in a 
quantifiable way toward the TMDL obligations.
    What I am interested in hearing from you is do you believe 
that if this kind of effort is embraced by ordinary homeowners 
across the watershed, that it could, in fact, have a meaningful 
impact on the efforts to move us toward the goals we have.
    Mr. DiPasquale. Yes. I do not think there is any question 
that it would have meaningful impact. In my mind, we have an 
environment that has been degraded and essentially died a death 
of a thousand cuts, as you have probably heard mentioned, and 
the only way we are really going to repair that is to repair 
those individual cuts. We can take care of the big sources of 
pollution, but I think we need to take care of the little 
sources of pollution as well.
    Your bill--and if I may be so presumptuous to commend you 
for it--I think is really landmark legislation in the sense 
that it increases public awareness, No. 1. No. 2, it gives us 
an insurance policy that we are going to, in fact, get these 
reductions in nutrients. Specifically in Maryland, I have been 
told that turf grass now exceeds cropland in terms of the 
amount of acreage that is in the watershed. So that is a 
significant source. The legislature in Maryland has passed a 
fertilizer law that essentially reduces nutrients and makes 
those improvements. I think there is an appetite among 
homeowners to put in rain gardens, put in rain barrels, to look 
for ways to divert stormwater runoff from city streets and 
ultimately storm sewer systems. I think we have to do that if 
we think we are going to get to where we need to be in an 
expeditious fashion. So thank you again for your leadership in 
that regard.
    Representative Sarbanes. Thank you.
    Senator Cardin. What is the timeframe for trying to get the 
parties together on the updated agreement?
    Mr. DiPasquale. Right now we are making good progress. In 
fact, there will be a meeting this afternoon where we go over 
some of the changes that have been agreed to, but we are 
looking at probably early to mid-December for having an 
agreement ready to sign by the Executive Council members.
    Senator Cardin. And it will provide for a more open review?
    Mr. DiPasquale. Yes. We will be having a 30-day comment 
period. We had one, essentially an outline for the agreement 
and the initial set of goals and outcomes that we put out for 
public review and actually got a pretty good response on that. 
We are in the process now of actually developing a narrative 
that would fill out the agreement, and we intend at this point 
to put that out for public notice probably toward the end of 
September, and we have public review for 30 days. Then we would 
take the input that we have from that process, make changes, 
and hopefully have a final agreement ready to be signed by mid-
December of this year.
    Senator Cardin. One of the major challenges of the previous 
agreements has been the rigidness, as you point out. To try to 
make adjustments and reconvene and try to get to the next 
agreement was cumbersome and basically not an option that was 
available. So I am intrigued by the process that you anticipate 
would be included here where adjustments can be formally made 
through a less formal process.
    Mr. DiPasquale. The overall structure of the partnership is 
goal implementation teams who I say do the heavy lifting of the 
organization. They are the science folks, the technical people 
who make recommendations up to the management board, and the 
management board, which I chair, is kind of the implementation 
level for the partnership. And the management board actually in 
this case is going to--as the agreement is currently drafted, 
would be overseeing the development of the management 
strategies, and they would review and approve those.
    The next level up is the principal staff committee, which 
is the executive secretaries from each of the agencies and 
counterparts, for example, in the commission and in the Federal 
agencies. They would have the authority to make changes to the 
outcomes only, not the overall goals of the partnership, but 
the outcomes, those things that are specifically deliverable, 
for example, setting a reforestation goal. If for some reason, 
that needed to be adjusted up or down, the principal staff 
committee using the adaptive management process that I referred 
to earlier would take a look at whether or not they agreed with 
doing that, and then they would make the decision at that level 
with full public participation. All of the meetings that we 
have had, management board meetings, principal staff committee 
meetings are all advertised. They are open to the public. We 
have opportunity for public review and comment in that process. 
So the principal staff committee would be given the authority 
to make changes in those specific outcomes.
    Senator Cardin. Of course, it cuts both ways. It can be 
used to strengthen, but it also can be used to give more leeway 
and perhaps weaken. And so it is of concern.
    But I think to make this a little less rigid makes sense, 
provided that it is an open process. And again, based upon the 
best science and outcome available to reach the goals that have 
already been established to me makes a lot of sense. So I would 
urge you to do this in a very open, transparent manner, as you 
are already suggesting, so the confidence this program has 
enjoyed for 30 years is maintained.
    Thank you very much. We appreciate your testimony.
    We will move to our second panel. Let me invite up Will 
Baker, a familiar face on the effort of the Chesapeake Bay. 
Will Baker is the head of the Chesapeake Bay Foundation, the 
largest not-for-profit conservation organization dedicated 
solely to preserving and protecting and restoring the 
Chesapeake Bay. He was rightfully acknowledged to receive the 
Presidential Medal for Environmental Excellence.
    Paul Spies is the Agricultural Conservation Planner of the 
Chester River Association. He continues to assist his family to 
operate their 1,000-acre grain farm and vineyard in Talbot 
County, Maryland, not far from where we are here.
    It is a pleasure to have Laura Neuman, who is the County 
Executive for Anne Arundel County, Maryland, not very far from 
where we are right now. And under her leadership, she has 
brought Anne Arundel County together, and I applaud her for her 
incredible leadership in the county. That is one of our great 
counties in our State.
    We will start with Mr. Baker.

   STATEMENT OF WILLIAM C. BAKER, PRESIDENT, CHESAPEAKE BAY 
                           FOUNDATION

    Mr. Baker. Thank you very much. Senator Cardin, Congressman 
Sarbanes, you all both have been great leaders.
    And, Congressman, allow me just to say a few more words 
about Senator Cardin. His leadership goes back all the way to 
the Maryland House of Delegates. Some in the audience may not 
know you were elected when you were still in law school. You 
were the youngest speaker of the house in Maryland, and you 
went on to Congress. What outstanding contributions you have 
made to our State and to the health and benefit of the 
Chesapeake Bay.
    Senator Cardin. I will give you an extra 5 minutes.
    [Laughter.]
    Mr. Baker. I was going to bargain for 6, but I will take 5. 
So thank you both.
    The Bay is America's largest estuary with Washington, DC, 
at the very center of its watershed. It is a national and, as 
you said, Senator, even international treasure with 17 million, 
close to 18 million people, and it is growing at 150,000 people 
a year.
    So how is it doing? The Bay is getting better, but it is 
still a system dangerously out of balance. Let me repeat it. It 
is getting better, but it is still dangerously out of balance. 
CBF's scientists score the health of the Chesapeake at a 32 on 
a scale of 0 to 100. That is a D+. We are a little bit harder 
graders than the University of Maryland. So the Bay is still 
ecologically functioning at only about a third of its historic 
capacity.
    Every summer we know about the mainstem and the tributaries 
plagued by dead zones, not enough oxygen to sustain life. On 
average, about 60 percent of the Bay and its tidal tributaries 
have insufficient levels of oxygen.
    But the Chesapeake Bay is still a significant economic 
engine. In 2009, the commercial seafood industry in Maryland 
and Virginia alone contributed $3.4 billion in sales, $890 
million in income, and almost 34,000 jobs to the local economy. 
Think, if the Bay were fully restored, what that would mean, 
and think of the loss just with oysters in the last 30 years, 
$4 billion in lost revenues in Maryland and Virginia.
    So let us look at what has been done so far.
    The first three Bay agreements, 1983, 1987, and 2000, had 
no enforcement protocols. Elected officials signed them with 
great fanfare and terrifically good intentions, but when the 
deadlines arrived, pollution reduction targets were missed not 
by an inch but by a mile every time. So in 2009, CBF and a 
number of partners sued EPA for failure to enforce the Clean 
Water Act and the terms of the Chesapeake Bay agreements.
    In December 2010, EPA and the jurisdictions finalized a new 
agreement, this one with teeth. It was called the TMDL, what 
the Chesapeake Bay Foundation calls the Chesapeake Clean Water 
Blueprint. Two-year transparent, reportable, and enforceable 
milestones, each of which must build to the ultimate deadline 
of 2025 make it very different from what has come before.
    In July, we evaluated the progress being made toward the 
2012-2013 milestones and found that all of the jurisdictions 
were making some progress toward their goals for that 
milestone, but no jurisdiction was on track to implement all of 
the pollution reduction practices they committed to achieve by 
the end of 2013. So while much remains to be done, scientists 
are seeing examples of improved water quality, better habitat 
conditions, and there is evidence that the dead zone, as you 
reported, is getting smaller, not gone but at least going in 
the right direction. And as you all mentioned, scientists 
speculate that we may be beginning to see some positive 
feedback loops as improvement strategies build one on the 
other.
    Think of this as a vicious cycle in reverse. We have had 
plenty of vicious cycles in the Bay history. Now maybe we are 
seeing one in reverse. In my full testimony, we detail a number 
of success stories, including Mattawoman Creek in Maryland, the 
Litiz Run in Pennsylvania, Muddy Creek in Virginia, Gravelly 
Branch in Delaware, and others.
    But we also detail sobering news. 2012 was the third year 
in a row that acres of underwater grasses declined on a Bay-
wide scale with current levels approaching a low last reported 
in 1986. And one of the most prized fresh water sport fish 
species, smallmouth bass, has suffered fish kills and 
perplexing illnesses in several Bay tributaries. In some areas, 
smallmouth bass populations have plummeted and there are signs 
that the health of the Bay's iconic rockfish, striped bass, is 
deteriorating. And finally, just this last summer, we have seen 
way too many ``no swimming'' advisories issued by health 
departments.
    So we must do more. Critical to the effort is Federal 
funding and technical assistance to local jurisdictions. To 
quote Yogi Berra, we must not snatch defeat from the jaws of 
victory. I think Yogi Berra said that. I actually just assume 
that. But we are getting close. We cannot lose it at this 
point. So we are on the verge of success. We need Federal 
leadership to continue. The Federal Government is the only 
jurisdiction--when you look at this chart, six States, 64,000 
square miles--the Federal Government is the only jurisdiction 
of government that can do what science says has to happen: 
manage this as one single ecological system. So we need the 
Federal Government to continue its leadership.
    The States and all of the stakeholders also need certainty 
that Bay implementation is fair. This certainty will come from 
a transparent clean up process so that all parties know that 
each other party is doing its job and Federal assistance to 
provide consistent funding and technical assistance to help 
individuals and communities defray the cost. Existing programs 
in the Clean Water Act are helpful, but local governments--and 
I am sure Ms. Neuman will talk about this--local governments 
need more, such as a dedicated grants program to help address 
polluted runoff, the only source of pollution which continues 
to increase.
    Finally, the importance of the Bay Program. As we have 
heard from Nick, it coordinates the science and the research 
and modeling and support services, data collection. It is 
essential for the Bay Program to continue to operate. The Clean 
Water Blueprint has infused new life, but what it has undone 
far exceeds what has been done to date. Now is not the time to 
rest. Now is, as Don Bosch says, the moment in time. We have 
got the best science, the technology, the know-how to get the 
job done. This is our watch. Our legacy to leave our children 
and grandchildren is an imperative.
    Thank you very much, Senator. Thank you, Congressman.
    [The prepared statement of Mr. Baker follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Senator Cardin. Thank you very much, Mr. Baker.
    Mr. Spies.

  STATEMENT OF PAUL SPIES, AGRICULTURAL CONSERVATION PLANNER, 
                   CHESTER RIVER ASSOCIATION

    Mr. Spies. I would like to thank you for the opportunity to 
present today and thank your staff for helping a first-timer 
get his presentation in. And though it is a little late, I am 
here and it is in. So thank you and thank you for the 
opportunity.
    I am a fourth generation farmer from Talbot County, 
Maryland, the neighboring county from where we are today. We 
grow corn, soybeans, wheat, 10 acres of grapes, and a 1-acre 
greenhouse complex for European cucumbers. I serve as the Vice 
President of the Maryland Grain Producers and a member of the 
local farm bureau. I also work with the Chester River 
Association as a conservation planner, working as a liaison 
between the environmental organization and the farmers in my 
community.
    My position has given me a unique, although sometimes 
uncomfortable, position to view the work and the progress made 
in the Chesapeake Bay restoration efforts. This is the 
viewpoint I speak from today as, like most farmers, an 
environmentally concerned producer.
    Today's hearing is entitled ``Chesapeake Bay Restoration: 
Progress and Challenges.'' So I can end on a positive note, I 
will start with the challenges.
    First, the goals we set for ourselves are lofty but not 
impossible. To use a sailing analogy, we need to use full sail 
and everyone at the oars. One sector pulling their load is not 
going to equal a clean Chesapeake Bay. Each sector will need to 
pull its weight and contribute significant reductions.
    Agriculture faces a threefold educational challenge.
    First, how to educate a growing population with less and 
less ties to the industry. Each generation gets further and 
further away from agriculture and food production and the food 
production experience. People are losing sight of how important 
agriculture and farmers really are. In the State I produce, 
Maryland, agriculture is an $8.25 billion industry. 50 percent 
of that revenue comes from animal production. 50 percent of the 
revenue. The non-agriculture sector needs to grasp that it is 
not perfect industry, but still it is a vital part of our 
economy. The old adage rings true. You cannot throw the baby 
out with the bath water. Agriculture is important to our 
present and to the future of the State and to the Chesapeake 
Bay watershed.
    The second educational challenge is understanding how far 
advanced our local farmers are in terms of nutrient management. 
And we need to be. We directly affect a public treasure, the 
Chesapeake Bay. Farmers in others area believe that it is not 
their problem because they do not live close to the Bay, but I 
would like to remind them that clean water is an everywhere 
problem. Streams, rivers, aquifers, lakes, the Gulf of Mexico. 
Basically if you use water, nutrient management is coming to an 
area near you.
    With that said, our Chesapeake Bay farmers are leaders in 
the field of nutrient management. From nutrient management 
plans to new fertilizer application technology, we put more 
effort into improving our nutrient use efficiency than any 
other part of the country.
    The final education challenge is the understanding of how a 
non-point source nutrient moves from the time of application to 
the time that it enters our streams and Chesapeake Bay. I am 
not sure if you received it, but I work with the USGS service. 
They put out a map of timeframes from the time nutrients are 
applied in the field to when it enters the local bays and 
streams. It is a little bit scary, especially for someone whose 
salary is directly related to the outcomes of clean water 
efforts. But from the time we apply the nutrients in 
agriculture to the time it enters our Bay and streams and 
estuary, it can be 30 years or even more. So when we talk about 
the next generation and how important it is, what we are doing 
today--we are not going to see the benefits until the next 
generation 30 years from now.
    The final challenge is a request. We need to avoid 
division. I have been part of multiple projects that 
environmental and agricultural sectors have come together to 
accomplish big things. The more we can work together and not 
point fingers, the more we will accomplish for the Chesapeake 
Bay.
    Onto the positives. Agriculture is doing its part. 
Milestones have been met, and with continued work future 
milestones will be met. One thing that no one is good at these 
days is patience. Cell phones, instant news, fast cars. When we 
push a button or the accelerator, we do not just want results, 
we want fast results. That is just not possible in the world of 
the Chesapeake Bay and cleaning it up. Agriculture has never 
said we do not want to do our part, but time is needed for 
change. I urge gracious patience, not the kind of patience that 
is given with the idea that patience is not needed or deserved, 
but the kind of patience you give a partner or a teammate.
    One of the biggest successes of the process has been 
research and advances in new technologies and ideas. One I have 
been part of is active nitrogen application, applying nitrogen 
based upon the crop's need as you are applying it instead of a 
uniform rate across the field. And a new study that we are 
working with USGS on is looking at irrigation and improving the 
irrigation technology and how we irrigate our crops. As you 
understand, the more information we have, the better decisions 
we can make. So as we improve our nutrient application and our 
irrigation technology, the better we will be able to grow our 
crops with less nutrients and still produce the food that we 
need.
    I am one of four brothers. We are all different, look 
different, talk different, have different interests, but we are 
a family and we have real interest in the health and success of 
each other. When we were young and our father gave us a chore 
to do, many times we all had our own ideas how to do it. We 
would tell the other ones to stop bothering us and we would go 
off and try to do it on our own. At some point we would realize 
that we were not getting much done and the Dukes of Hazzard was 
about to come on. We would huddle up, open ourselves up to new 
ideas, make a plan, and work together. Sometimes we would use 
mostly my plan. Most of the time we would not. I will tell you, 
though, when we worked together, we always got the job done. We 
never missed Bo and Luke slinging gravel in Hazzard. The 
Chesapeake Bay Program has brought us together. We look 
different. We talk different and we have different interests. 
But we all had to come together for the health of the 
Chesapeake Bay. I hope we can come together, to be open to new 
ideas, make a plan, and work together.
    The final thing. Progress. The dictionary definition: a 
forward or onward movement; gradual betterment. Many would like 
to change ``gradual'' to ``immediate.'' Using Webster's 
version, I would like to say we have been successful and are 
making progress. If we all stay together, pull our oars, and 
keep the sails up, we can have a better Chesapeake Bay.
    Thank you.
    [The prepared statement of Mr. Spies follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Mr. Spies, thank you for that comment. I 
think you summarized it well about how success depends upon all 
being in and everyone doing their share because we cannot just 
do it alone. I appreciate that comment.
    Ms. Neuman.

   STATEMENT OF LAURA NEUMAN, COUNTY EXECUTIVE, ANNE ARUNDEL 
                        COUNTY, MARYLAND

    Ms. Neuman. Good morning, Senator. Good morning, 
Congressman. I want to thank the Committee for inviting me to 
participate in this important hearing, and I also want to 
acknowledge you, Senator, for your commitment to the 
restoration of Chesapeake Bay and to my colleagues for their 
dedication and expertise.
    When I moved to Anne Arundel County 21 years ago, I moved 
to be close to the Chesapeake Bay. There is nothing more 
beautiful or more worthy of preserving. I think we can all 
agree that to preserve the Bay's future, we must preserve it 
today.
    Anne Arundel County is a primary beneficiary of the Bay 
with over 500 miles of shoreline within our boundaries. There 
is no question that we must continue to focus our attention on 
Bay clean up not just for today but for years to come.
    How we clean up the Bay is of particular concern to me, 
specifically how much that clean up will cost our taxpayers and 
our accountability to them.
    When I was appointed County Executive in February, our 
county council was prepared to pass the stormwater management 
fee, which is not so affectionately known as the ``rain tax.'' 
This tax was mandated by the State legislature in 2012 as a 
funding source to reduce pollutants associated with stormwater 
runoff.
    In 2012, the Maryland General Assembly mandated the State's 
10 largest jurisdictions, not all 24, but a select 10, to adopt 
local laws by July 1st, 2013. I vetoed the bill because our 
county did not deserve another tax and also because the country 
had not done a good enough job educating the public about the 
fee and, more importantly, what the money would be used for. 
Ultimately my veto was overridden by the council. I will talk 
more about that in the context of challenges.
    But first, overall on the watershed implementation plan. In 
July 2012, Anne Arundel County submitted its detailed water 
implementation plan to the Maryland Department of Environment, 
which is designed to achieve the necessary 32 percent reduction 
in nitrogen and 47 percent reduction in phosphorus and sediment 
to meet our pollution diet by 2025. It falls into three 
separate categories that need to be addressed.
    First is wastewater treatment plants. Anne Arundel County 
has made significant progress in reducing the pollutants from 
wastewater treatment plants. The county is halfway through the 
implementation of a $250 million program to provide enhanced 
nutrient removal, or ENR, at all seven wastewater plants. This 
work will be completed by 2017 and will remove nearly 470,000 
pounds annually of nitrogen. At ultimate plant capacity, the 
pollutant load removal increases to nearly 720,000 pounds 
annually.
    This effort is dependent on the Chesapeake Bay restoration 
fee, also known as the ``flush tax,'' that was imposed by the 
State legislature on all property owners across the entire 
State. By applying the tax to the broadest base, the rate was 
kept lower and has been viewed as a cost-effective means of 
addressing a major source of Bay pollution. No one wants taxes, 
but when they are spread across the board, it is a fairer 
process and the pain seems a little bit more tolerable.
    The second area is stormwater I want to address as well. 
When it comes to addressing urban runoff and the challenges of 
stormwater, the estimated cost to implement a strategy in Anne 
Arundel County is $1 billion by 2025. This mandate is under the 
regulatory authority of the EPA. The EPA should have undertaken 
a fiscal impact analysis to evaluate each jurisdiction's 
capacity to raise and expend this level of funding. This does 
not even consider the extraordinary requirements of covering 
septic systems to county homes converting septic systems to 
county public sewer with infrastructure requirements in the 
billions, a far bigger project.
    As I mentioned, in 2012, the Maryland General Assembly 
mandated the State's 10 largest jurisdictions to adopt the laws 
by July 1st to establish a watershed protection and restoration 
program and include a stormwater remediation fee, also known as 
the ``rain tax,'' for the purposes of funding the 2025 TMDL 
stormwater goals. I am not aware of any other Bay region State 
that has imposed new taxes for both wastewater treatment plant 
upgrades and stormwater remediation.
    Candidly, I vetoed the local stormwater tax in Anne Arundel 
County because I did not like the way in which it was imposed 
on our residents by the State. It has resulted in what I call a 
``race to the bottom'' among the 10 jurisdictions to see who 
could impose the lowest tax, including one jurisdiction that 
has refused to impose a local tax at all.
    I have personally read hundreds of emails on this subject, 
if not thousands. Last week, while I was speaking to a group of 
reporters and editors in Baltimore, they asked me what was the 
top question I received from the constituents. Without even 
thinking about it or blinking, I reported the rain tax.
    My staff and I have received numerous complaints from every 
type of taxpayer: residential, nonprofit, religious 
organizations and businesses. People do not understand the 
causal connection between urban runoff and sediment pollution 
in the Bay. There was no large-scale public education campaign 
to let citizens know what TMDL stands for and they were totally 
unprepared for yet another tax on their property, this time to 
pay for stormwater projects. Because the county council 
promptly overrode my veto, we have a stormwater tax in effect 
in Anne Arundel County.
    Our hands are tied and so we are moving forward. Anne 
Arundel County is implementing a watershed protection and 
restoration program. The stormwater tax is now assessed on 
residential and non-residential properties within the county 
and appears on the property tax bill. The residential fee is 
assessed based on zoning density. The non-residential fee is 
assessed on impervious surface determined from aerial 
photography. The base rate is $85 per 2,940 square feet. When 
fully phased in over 3 years, the stormwater tax will generate 
$22.5 million in fiscal year 2016.
    Our county's current 6-year capital improvement plan is 
budgeted for $460 million to fund stormwater projects which 
will achieve a 10 percent reduction in nitrogen, 25 percent 
reduction in phosphorus, and 22 percent reduction in sediment 
by 2019. Anne Arundel County taxpayers are already carrying a 
significant share of the Bay clean up.
    The rain tax has received the most attention, but to place 
so much emphasis on this one area is to ignore the biggest 
challenge which looms in front of us, which brings us to 
septics.
    The third and most costly sector toward meeting our 
pollutant reduction mandates is the conversion of septic 
systems to public sewer. Anne Arundel County has over 40,000 
septic systems which deliver an estimated 515,000 pounds of 
nitrogen to the Chesapeake Bay each year. We must reduce our 
nitrogen loads by 230,000 pounds annually, requiring us to 
convert roughly half our septic systems to public service 
systems, which is over 20,000 connections. This is estimated to 
cost Anne Arundel County nearly $1.5 billion.
    The technical and regulatory challenges associated with 
this effort are daunting. Success will require an integrated 
partnership of Federal, State, and local governments. Local 
governments cannot do this alone. Unfortunately, we have to. 
Yes, the Chesapeake Bay is a treasure for our community, but it 
is also an economic development engine for the eastern half of 
the United States. When you consider the widening of the Panama 
Canal, the Chesapeake serves an important economic development 
function for the eastern half of the United States, and 
cleaning up the Bay is an important job for everyone who 
benefits from the Bay.
    In the 1970s when the Clean Water Act came into being, the 
Federal Government provided 87.5 percent of funding to help 
local governments pay for the massive investment in extending 
sewer service to unserved areas. Today's challenges are similar 
in the magnitude of what we are being asked to do. The 
Chesapeake Bay is a national treasure. It is a shared resource 
and it should be a shared responsibility.
    We are not having an honest conversation if we are not 
including all three areas of water treatment and management 
that must be addressed. All three areas, not just stormwater.
    On to compliance and challenges and emerging issues, we 
certainly have many challenges ahead. Without question, where 
you stand on this important issue of stormwater in Maryland 
will be a defining issue in the 2014 election regardless of 
your position. Consequently, the Maryland legislature will have 
pressure to revisit the issue during the 2014 session. It will 
inject more uncertainty into the program, which received no 
financial assistance from the State. Public acceptance of a 
benefit they cannot visualize is an ongoing challenge for every 
elected official.
    Although the efforts of Federal and State governments are 
appreciated, financial assistance has been woefully inadequate 
compared to the costs local governments are facing for 
stormwater retrofits. Finding the dollars to comply is an issue 
of legitimate concern, particularly for local governments who 
have limited tax bases to support such a costly undertaking. We 
look to our Federal partners for a more creative and 
collaborative approach to achieving our goals.
    A more technical challenge involves navigating a lengthy 
and difficult Federal regulatory process, probably the biggest 
challenge of all, to obtain necessary permits for stream 
restoration projects. My colleagues might agree with me on 
that. Getting permits often takes 1 to 2 years. Often the 
permits require extensive and costly pre- and post-construction 
monitoring. Every environmental group I have worked with has 
named this as their primary challenge. This results in 
significant additional project costs, as well as expansion of 
project schedules due to the duration and timing of the 
required monitoring, costing taxpayers more money.
    Federal permitting requirements become a barrier to Anne 
Arundel County achieving mandated targets. In the past year, 
Anne Arundel County has engaged in an ongoing dialog with 
Federal and State agencies to address the permitting issue. 
This is an action item that demands resolution.
    In conclusion, if there is anything to take away from 
lessons learned, it is a fact that the Chesapeake Bay is the 
Nation's largest estuary and one of the world's most productive 
bodies of water worthy of national attention, no different than 
the Federal response to the Great Lakes or Florida's 
Everglades. No one county, no one State, no one region should 
have to bear the entire burden of remediation. We must all be 
in this together. When we shift this responsibility to a few 
counties, we are placing the burden of a national resource on a 
local community. At a time when Maryland is struggling to be 
competitive, we are putting ourselves at a competitive 
disadvantage with yet another tax.
    On behalf of the citizens of Anne Arundel County, I 
appreciate the opportunity to share with the Subcommittee a 
local government experience to date in meeting the EPA's 
pollution diet for the Chesapeake Bay. Thank you for inviting 
me to speak today.
    [The prepared statement of Ms. Neuman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. You are welcome. Thank you for your 
testimony and thank all three of you for your testimony.
    It is very clear from all of your testimony that, first, 
the public wants a clean Chesapeake Bay. You moved here, Ms. 
Neuman, because of the Bay. They expect when they turn on their 
faucet, they are going to get clean water. They expect us to 
deliver and protect the environment.
    And it was the Congress, not the Environmental Protection 
Agency, that passed the Clean Water Act. It was a very popular 
thing to do because it speaks to a national priority. We wanted 
clean water. We passed the Clean Air Act because we wanted 
clean air.
    And I applaud Bill Baker for saying it is one thing to have 
a law. It is another thing to enforce a law. And it was not 
easy to get different stakeholders together on the Chesapeake 
Bay Program, and it was well intended. No question about it. 
And Mr. Baker is absolutely right. As we look at the different 
progress States--we did not miss by a little bit. We missed it 
by a lot what we thought we should be able to get done.
    So now we are looking at a progress chart that is not as 
rosy as we had anticipated it to be. And I agree with all three 
of your testimonies, and that is, it is not up to the farmers, 
it is not up to developers, it is not up to local government. 
It is up to all of us to figure out a plan that works where 
everyone is held accountable and responsible for what they 
should be able to achieve, not just public good science tells 
us, but good politics tells us.
    I particularly appreciate your point, Ms. Neuman, that this 
has got to be done in a way the public will accept. Otherwise, 
we cannot sustain this. This is democracy. So we have got to 
get this done right.
    So, Mr. Baker, let me start with you. Why are we not going 
to reach the 2015 goals? Is it a matter of political will? Is 
it a matter of finance? Is it a matter that we set goals too 
high? Why are we not achieving more?
    Mr. Baker. The 2016 interim goal?
    Senator Cardin. Right.
    Mr. Baker. We have optimism and hope that we will meet 
that.
    Senator Cardin. Oh, good. I thought you said in your 
testimony that all of the jurisdictions are making progress but 
not enough progress.
    Mr. Baker. This is in the milestone for 2012-2013. Each of 
the States has committed to doing certain things, and so for 
the 2013 deadline of the milestones, the interim report was for 
half of that 2-year term. They reported on what they were doing 
and none of them were meeting but all were doing some. We have 
confidence that some of the States may yet pull out the 2013 
milestone and meet all of their requirements, but it is going 
to be a big lift in this current year and what is left of this 
year.
    In terms of the 2016, 60 percent of the way toward the 2025 
deadline, we are still hopeful that that can be met, but it is 
going to take a lot of work.
    Senator Cardin. What is the greatest challenge the 
stakeholders are facing?
    Mr. Baker. With respect, Ms. Neuman, the greatest challenge 
is hearing local officials complain about how costly this will 
be and using dollar amounts that are simply unsubstantiated by 
reality, scaring people into thinking that we cannot afford to 
save the Chesapeake Bay. Over and over again, you will see huge 
numbers come out of local governments, and once implementation 
starts, those numbers start to go down dramatically. I think 
that is the greatest challenge, that people are being scared, 
that political agendas are being pursued to try to foment 
opposition to cleaning up the Chesapeake Bay to saying things 
like the only source of pollution that is being attacked is 
stormwater when that is simply not the case. So I do object to 
using the Chesapeake Bay and its clean up as a way to tell 
people that what is being asked is impractical and impossible 
to achieve. It is not.
    Senator Cardin. On the eastern shore of Maryland, in fact, 
in most parts of our State, if you are talking to the farmers, 
they think the farmers are the ones who are being picked on the 
most as far as dealing with the clean up of the Bay.
    So, Mr. Spies, what do you find to be your greatest 
challenge in trying to meet the expectations that government 
has of a clean farming?
    Mr. Spies. One of the issues--and I do not have a fix to 
it, but a lot of the grants that I have been involved in and a 
lot of grants that other people have been involved in have been 
where people really look at the new technology, the next best 
thing. We know cover crops are working. We know nutrient 
management plants have a benefit, but what is that next thing 
farmers can do and agriculture can do to reduce their burden on 
the Bay? So there are a lot of exciting things coming down the 
pike, but part of the crux of that is once we have researched 
it and we start using it, to put it into the plan of the TMDL, 
there is a process and it needs to be evaluated. It needs to be 
peer-reviewed. Then it is put into our TMDLs and our WIPs as a 
temporary goal that is usually pretty conservative. And so 
agriculture does not from my point of view--I do not know about 
the others, but agriculture is not really reaping all the 
benefits of some of the practices that we have been doing and 
the money we have been pumping into reduction of nutrients. So 
I think it is an important process to evaluate each new 
technology and make sure that it is living up to what has been 
billed. It would just be nice if there was a way to kind of 
track that and follow that along through the process instead of 
it being put off until 2017 or later.
    I am excited about the programs. I am working within 
agriculture and I think agriculture will be able to meet its 
goals. It is going to hurt. It is going to take work. But some 
of the technologies that are coming and the research that is 
coming are exciting.
    Senator Cardin. Thank you.
    Ms. Neuman, most of your relationship in regards to the Bay 
is with the State. The State has come up with a plan. The 
counties are responsible for their sector. The legislature has 
passed certain laws in regards to funding. My question is what 
would you like to see the Federal Government do to make your 
job a little bit easier in dealing with the responsibilities 
you have with the Chesapeake Bay.
    Ms. Neuman. Well, I believe the Chesapeake Bay is a 
national resource. The Government could take a lead just like 
they did with the Everglades or Great Lakes in cleaning up the 
Bay and the tributaries that flow into the Bay. The Chesapeake 
Bay benefits everyone in this country not just because it is a 
beautiful body of water, but it is a major economic development 
engine. If you consider the widening of the Panama Canal, it is 
more important. So I believe that the Federal Government should 
take a lead in the overall clean up.
    What is happening in the State is that when this 
remediation fee was passed by the General Assembly, what they 
did was push it down to the 10 counties rather than the 24 
jurisdictions. So those 10 counties competed in what I call a 
race to the bottom to see who can propose the lowest tax. It is 
not a fee. It is a tax.
    We all agree that the Bay needs to be cleaned up. There is 
not any question about that. That is why there are over 600 
nonprofits that in some way are focused on cleaning up the Bay 
or the tributaries flowing into the Bay. It is very important. 
We need to do it. It needs to be done, but to push it down to 
10 counties in the State of Maryland when the entire country 
and certainly the eastern half greatly benefits from this huge 
body of water I think is unfair at the county level and it 
requires a broader perspective. It requires work at the Federal 
level to manage this process much like you have done with the 
Everglades and the Great Lakes.
    Senator Cardin. Well, part of reforming the conservation 
sections of the Farm Bill is the recognition by the Federal 
Government that there are critical areas of this country of 
great interest to the entire country so that there are programs 
tailored to provide additional help in critical environmental 
areas such as the Chesapeake Bay watershed. And the same thing 
is true as we look at the Chesapeake Bay Program as to how we 
can get national attention to an area that is important to the 
entire country because it is a national responsibility, not 
just a regional responsibility.
    Congressman Sarbanes.
    Representative Sarbanes. Thank you.
    Mr. Baker, I wanted to ask you about--you talked about the 
three agreements that took place and the striking failure to 
meet the objectives that have been set out in each of those. 
Why do you think we missed those? It seems to me the 
information and knowledge we had at our fingertips before those 
agreements were in place was nothing like what we have now, and 
it is harder to own the problem than solve it when you 
distribute it out to all stakeholders. I imagine you would 
say--but I would like to hear your thoughts on this--that we 
cannot pretend now we do not know what we need to know in order 
to make significant progress. It is not a matter of knowledge 
anymore. It is about meeting the expectations.
    But can you comment on sort of how we move to a new place 
with the information and knowledge available to us to provide 
the stakeholders with that ownership that we ought to be able 
to expect from the stakeholders to solve the problem, that that 
might be one of the things that helps make a difference this 
time out?
    Mr. Baker. Yes, sir. And it is important to remember that 
we had 90 percent at least of the science in 1987 when the 40 
percent reduction for nitrogen and phosphorus was set. The 
numbers in the TMDL blueprint are near exactly the same as they 
were in the 1987 agreement in terms of how much pollution needs 
to be reduced. What is so different this time--and you asked 
why. And I think one is that there is better information, but 
also people are impatient and they are impatient when after 35 
years progress has not been made in saving something that is as 
important to our economy and to our well-being as Chesapeake 
Bay. They do demand more. So I think the constituents of our 
elected officials in this six-State region said now is the time 
to get serious.
    The reason this one is different is because it headed off 
what hurt the last ones, which was toward the end of the cycle, 
whether it was either 1987 and 2000 or 2000 and 2010, elected 
officials started to say, you know, I just do not think we are 
going to be able to make it. I wish I had been around early on 
when we first got started because we would have gotten started 
earlier. We have delayed. This one requires the 2-year 
incremental reportable and measurable steps. Each State has to 
get to the 2025 deadline, and if the States do not meet those 
2-year milestones, the EPA can impose sanctions against the 
States. We think this is a critical difference.
    But do not take my word for it. Look who is opposing it. 
Some of the most powerful associations in this country are 
opposing the TMDL in Federal court and in Congress because they 
think this time it has got a real chance to succeed, and they 
are afraid of success. So you have the Fertilizer Institute, 
the National Chicken Growers, the Hog Council, the Grain 
Growers, the Homebuilders Association of America all suing in 
Federal court to try to take away the TMDL, and they are 
lobbying in Congress.
    So this one is different. People have been impatient. We 
know more and we decided that something had to be done that was 
enforceable.
    Representative Sarbanes. I like the concept that we have 
now, in effect, an early warning system, on the political side 
of this to check in at regular intervals to adjust and enforce 
and insist in ways that we could not do before with the way the 
plan was designed and structured.
    Talk a little bit and then I will ask you, Ms. Neuman, to 
speak to this as well. But let us talk about the public's 
relationship to the Chesapeake Bay and to these efforts 
generally. I know the Chesapeake Bay Foundation periodically 
does surveys to get a sense of what the public's perspective is 
and what the appetite is in the public to step up and do the 
right thing with respect to the Bay. Then it is a ``connect the 
dots'' exercise if, as I imagine you are going to tell me now, 
there is strong support for a cleaner Chesapeake Bay, that you 
then show people, well, these are the things that have to be 
done in order to achieve that. But talk a little bit about what 
you get when you go and survey the public and how that helps to 
inform the position and policy.
    Mr. Baker. Well, we do do routine public opinion surveys, 
and we just finished one in Virginia. There is a gubernatorial 
election coming up. We hired both a Republican and a Democratic 
polling firm to work together. We will be glad to provide the 
results to you and to the rest of the Committee members.
    The results are startling: overwhelming support not only 
for cleaning up the waters of the rivers and streams of the 
Chesapeake Bay, but for paying for it. Overwhelming support of 
paying for the clean up. And it is a broad-based survey. There 
is a lot more than that, but the short answer--I know we have 
limited time and others want to speak--overwhelming public 
support every time there is a survey done.
    Representative Sarbanes. Ms. Neuman, as you go around the 
county, I imagine you sense that commitment to the health of 
the Bay and a willingness on the part of the residents of Anne 
Arundel County to try to do their part. Do you think there is a 
way to kind of capture that interest and energy and commitment 
and to channel it so the residents of the county and others in 
Maryland and beyond will take greater ownership of some of the 
resource side of the equation that needs to go with it?
    Ms. Neuman. I would, without question, say there is 
overwhelming support for cleaning up the Bay and the revenue 
streams that flow into the Bay. I do not think any of us would 
debate that point. We all agree on that. It needs to be cleaned 
up. We have been cleaning it up for 35 years.
    The question is how are we going to pay for that. Are we 
going to ask a handful of jurisdictions in the State of 
Maryland to bear the financial burden? This is a national 
problem, and if you are a woman who is 60 years old living in a 
1,000-square-foot house on 1 acre in Glen Burnie, you are being 
asked to pay $170 a year right now, which is, by the way, your 
40th tax increase in 7 years--tax or fee increase in 7 years. 
They are pushing back. It is the No. 1 question I get asked 
everywhere I go.
    And even those who support the Bay--and that includes me. I 
mean, I really moved to Anne Arundel County because of the Bay. 
I grew up in east Baltimore. I had never been on a boat. I 
wanted to go out and see what it was like. I got in a boat at 
27 and moved to Annapolis 2 weeks later. I love being on the 
Bay. There is no greater activity. Those of us who benefit from 
being on it, know the beauty of it. Not everyone has that 
opportunity. If you live on the water in Anne Arundel County, 
if you are of a certain socioeconomic class and you can see the 
benefits of being on the Bay, it makes a lot of sense to do 
that. Some people have that privilege. Not everyone does. Most 
of our citizens do not have that privilege.
    If you want people to appreciate the Bay, you need to get 
them on the Bay, but if you have never been on the Bay or if 
you do not benefit or directly understand the economic benefit 
of preserving the Bay, this national treasure that is a major 
economic engine, in addition to being a natural beauty, it is 
hard for you to connect with another $170 a year tax which, by 
the way, is going up to several hundred dollars over the next 
several years. And when you have 10 counties out of 24 who are 
being asked to pass this tax on to their citizens, it seems 
fundamentally unfair.
    And the tax rate is not consistent. So in one county, it is 
$35. In our county, it is $170. They say it is $35, but I sent 
in my request to find out and it was $170. So it is not 
uniformly applied and citizens in 10 counties in our State are 
being asked to bear the financial cost of it. It does not seem 
fair to me or to every citizen I have spoken with who is 
opposed to this tax.
    There needs to be a national approach to addressing this 
issue. The Bay does need to be cleaned up. It needs to be 
addressed nationally. And I believe our local and our statewide 
elected officials will be pressed hard on this in the next 
round of elections.
    Representative Sarbanes. Well, I am sure the two of us 
would agree with the notion that the Federal Government can be 
contributing more in resources certainly. I think we have 
advocated bolstering the partnership and a shared 
responsibility that you are referring to. But I do think there 
is a potential to connect the strong feelings that people have 
about the Bay to an ownership and stewardship of progress we 
have made there that includes being not necessarily loving of 
the Bay but being accepting of the notion that some additional 
resources to promote the benefits from the Bay are to be 
expected.
    The other thing is that I think there is real opportunity, 
as counties and jurisdictions design their stormwater 
management fee structure, to offer credits to homeowners and 
others who are affected by it when they take meaningful steps 
to reduce their particular footprint. And the legislation that 
I have offered, The Chesapeake Bay Homeowners Act, has 
initiatives that the EPA is taking to model how that would work 
and what is the potential. So then the homeowner and consumer 
or resident is not just looking at this through the lens of I 
am going to get hit with X dollars' worth of tax, but I have an 
opportunity through things that I do in my own property, 
initiatives that I undertake to reduce that and at the same 
time be contributing both in kind and partially, yes, with some 
dollars contributed to the overall health of the Bay. And that 
is the kind of partnership between government, nonprofit 
organizations, and ordinary citizens, of whom there are 18 
million of us residing in the Chesapeake Bay watershed that can 
get us to those critical tipping points that we heard about 
earlier.
    Ms. Neuman. I think it is a great idea. It is a frequently 
asked question for those who have invested in remediation 
projects on their property, whether it be residential or 
commercial. They are asking us to be aware of that. But there 
are three fees associated with cleaning up: Chesapeake Bay 
Restoration Fund, the stormwater remediation fee, also known as 
the rain tax, and in our county we have the septic issue which 
is exponentially larger than either of those issues.
    Senator Cardin. Well, let me thank all three of our 
witnesses. I think this has been extremely helpful.
    And, Mr. Baker, the map that you put out I think is very 
telling. We have enjoyed support not just from Virginia and 
Maryland and Delaware and the Nation's capital but also from 
the people of Pennsylvania and the people of New York and 
people of West Virginia who are in the watershed but do not see 
it quite as visibly as we see it because we get the beauty of 
the Bay. They have the tributaries that are critically 
important for the health of the Bay. We have had that type of 
support over the years with the partnership. And I think all of 
your testimonies have been extremely helpful to us.
    Once again, I want to just thank the leadership of the 
Environment and Public Works Committee for allowing us to get 
out into the community to develop a hearing on how we can, as a 
practical matter, help. There is no question that there is a 
commitment in this country to clean water. There is a 
commitment for improving the watershed. The Chesapeake Bay 
partnership has been a model program that looks at ways that we 
can really make the results the Clean Water Act would dictate 
us to make and that the people of this country expect us to do. 
But we have got to find a practical way to achieve that.
    We have been working at this for a long time. But for the 
work that we have done, we would be in much worse shape today. 
But it is frustrating that we have not been able to achieve 
more. And I could not agree with Mr. Spies more that everyone 
has to be at the table. It cannot be one person. All of us have 
to come. And it does cost money. We have to have the resources. 
I know the State of Maryland can meet its obligations and has 
tried hard to find a way to do that in conjunction with all of 
the people of our State.
    So I will take this back. Senator Boozman has been one of 
our partners in this. He is the ranking Republican member of 
the subcommittee. He has been very interested in the Chesapeake 
Bay. And I also want to thank, as I said earlier, Senator Boxer 
and Senator Vitter, the chairperson and the ranking Republican 
on the full committee, for their commitment for us to try to 
develop a record so that our Committee can act in a responsible 
manner.
    Once again, thank you all for your participation.
    And with that, the subcommittee hearing will be adjourned.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]
    [Additional statements submitted for the record follow:]

                    Statement of Hon. David Vitter, 
                U.S. Senator from the State of Louisiana

    Mr. Chairman, thank you for calling today's hearing. I also 
thank our witnesses for testifying before the Subcommittee on 
Water and Wildlife.
    It is no secret that taking on incredibly complex 
restoration efforts--whether in the Chesapeake Bay, Louisiana, 
or elsewhere--requires cooperative and trustworthy 
relationships between numerous parties, including local, State 
and Federal officials, farmers, industry representatives, 
municipal utility interests, nonprofit organizations, and 
others. I am concerned, however, that Federal officials and 
environmental groups are not holding up their end of the 
bargain.
    For example, the U.S. Environmental Protection Agency (EPA) 
wants the various Chesapeake States to work together on 
restoration issues, yet is at the same time undermining State 
and local environmental authority through various regulatory 
programs. EPA recently determined, without State input, that it 
will assess Bay Watershed States' animal feeding operation 
standards and has indicated that it will take ``appropriate 
actions'' if the State program isn't satisfactory to the 
agency. This type of veiled threat serves no one. It completely 
ignores the States' primary role in environmental regulation, 
and it does a disservice to restoration efforts by pitting the 
local jurisdictions against the Federal Government.
    Likewise, environmental groups continue to pursue endless 
litigation against anyone who dares to use natural resources to 
provide food and jobs to our fellow Americans, often at the 
cost of real environmental progress. And we should all remember 
that one of the primary roles of our Federal Government is to 
facilitate commerce, not to frustrate it. I was disappointed to 
learn last week that farmers in Maryland will not be able to 
recoup $3 million in legal fees incurred in defending an 
outrageous Clean Water Act lawsuit filed by the Waterkeeper 
Alliance. It is well known here that the tactics the 
Waterkeeper Alliance used to persecute the farmers were 
dubious, but the Alliance was not held to account. If 
environmental groups truly want improved restoration efforts, 
they should think twice before suing the people who are putting 
food on our plates in an environmentally responsible manner.
    I am pleased to have as the minority witness the County 
Executive for Anne Arundel County, Laura Neuman. She is a local 
official who understands the importance of a balanced approach 
to Chesapeake Bay restoration. Through her opposition to the 
so-called ``rain tax'' and other efforts, the County Executive 
has worked to ensure that those who want restoration to involve 
more than just environmental groups and government bureaucrats 
have a voice in Maryland.
    Once again, I thank the Chairman for calling today's 
hearing.

                    Statement of Hon. John Boozman, 
                U.S. Senator from the State of Arkansas

    Chairman Cardin, thank you for holding today's hearing on 
the progress and ongoing challenges of efforts to improve water 
quality in the Chesapeake Bay watershed.
    Earlier this year, when I became Subcommittee Ranking 
Member, I appreciated the opportunity to visit with you and to 
receive a progress report from you on the Chesapeake Bay 
Program.
    Today's hearing is nationally significant for several 
reasons. First, the Chesapeake Bay--our nation's largest 
estuary, with a watershed that stretches from New York down 
throughout the mid-Atlantic region--is a vital resource of 
national significance. Second, the actions taken to restore the 
Bay set precedence that may be duplicated in other watersheds. 
Finally, the positive and negative experiences of Chesapeake 
Bay watershed stakeholders, from all walks of life, will inform 
other communities with similar challenges.
    Much of today's testimony is encouraging. In many respects, 
the Bay's water quality is improving and critical ecosystems 
are becoming healthier and more resilient. However, as our 
nation continues to borrow at a rate of billions of dollars 
every single day--an unsustainable level of borrowing--water 
quality stakeholders are rightfully concerned that an 
increasing share of the burden for restoration activities could 
be shifted to State and local governments. We have experienced 
this type of burden in Arkansas, as well. For example, in 
northwest Arkansas, a handful of relatively small communities 
have invested over $250 million over the last decade to improve 
their wastewater treatment plants, with very little support 
from the Federal Government.
    To maintain support, the Chesapeake Bay Program and 
activities carried out under the President's Executive Order 
must remain focused on water quality improvement; and where 
these activities have been focused on other agenda items 
unrelated or only tangentially related to water quality 
improvement within the watershed, I urge our agencies to 
refocus and redirect efforts toward solving water quality 
challenges. For example, we hear about climate change as part 
of the Federal Government's Chesapeake Bay restoration efforts. 
We also hear of a Federal ``Mid-Atlantic Elementary and 
Secondary Environmental Literacy Strategy,'' and the like. 
Instead of focusing on the problems that have the potential to 
unite citizens behind Chesapeake Bay restoration efforts, these 
peripheral efforts create the impression that the 
Administration is using the Program to advance its own 
political agenda. Congress may debate climate-related policies 
or whether there should be Federal incentives for schools to 
place a higher emphasis on environmental science than on other 
areas of need, such as medicine, but the Chesapeake Bay efforts 
should not be used to preempt these important debates. The 
threat of ``mission drift'' is real, and if the Bay Program 
appears to be too political, support will be undermined.
    I also want to address the importance of cooperative 
federalism. Too often the EPA begins by threatening the States 
and other non-Federal stakeholders. Many future water quality 
improvement efforts--both in the Bay watershed and across our 
country--will depend on voluntary actions by farmers, community 
leaders, and ongoing local taxpayer support. The EPA's 
aggressive posture could undermine local support and voluntary 
actions.
    Moving forward, we should continue to promote cooperation 
and support. We should continue to invest in State revolving 
fund capitalization grants. We should support voluntary trading 
initiatives that allow resources to be most effectively used. 
And we should continue to emphasize the role of partners, like 
NRCS, that have earned trust in our communities.
    Finally, I regret that I was unable to attend today's 
hearing, but I look forward to reviewing the testimony and 
continuing to work with you, Mr. Chairman, to support water 
quality improvement efforts in the Chesapeake Bay watershed and 
throughout our country.
    Thank you.

                                 [all]
</pre></body></html>
